<html>
<title> - THE VICTIMS OF CRIME ACT: 25 YEARS OF PROTECTING AND SUPPORTING VICTIMS</title>
<body><pre>[Senate Hearing 111-459]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-459
 
THE VICTIMS OF CRIME ACT: 25 YEARS OF PROTECTING AND SUPPORTING VICTIMS 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

                          Serial No. J-111-16

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-685 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JOHN CORNYN, Texas
RON WYDEN, Oregon                    TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
            Bruce A. Cohen, Chief Counsel and Staff Director
              Nicholas A. Rossi, Republican Chief Counsel
























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  Californa......................................................     2
Leahy, Hon. Ptrick J., a U.S. Senator from the State of Vermont..     1
    prepared statement...........................................    41

                               WITNESSES

Derene, Steve, Executive Director, National Association of 
  Victims of Crime Act Assistance Administrators, Madison, 
  Wisconsin......................................................    11
Leary, Mary Lou, Executive Director, National Center for Victims 
  of Crime, Washington, D.C......................................     7
Perkins, R. Keith, Esq., Founding Attorney and Executive 
  Director, The Never Again Foundation, Chandler, Arizona........     9
Rex, Judith A., Executive Director, Vermont Center for Crime 
  Victims Services, Waterbury, Vermont...........................     5
Russell, Susan S., M.A., Warren, Vermont.........................     3

                         QUESTIONS AND ANSWERS

Responses of Steve Derene to questions submitted by Senators 
  Specter and Coburn.............................................    22
Responses of Judith A. Rex to questions submitted by Senator 
  Specter........................................................    30

                       SUBMISSIONS FOR THE RECORD

Arizona Coalition Against Domestic Violence, Allie Bones, MSW, 
  Executive Director, Phoenix, Arizona, statement................    31
Derene, Steve, Executive Director, National Association of 
  Victims of Crime act Assistance Administrators, Madison, 
  Wisconsin, statement and attachment............................    37
Houde, Elizabeth, President & CEO, Arizona Sexual Assault 
  Network, Tempe, Arizona, statement.............................    39
Leary, Mary Lou, Executive Director, National Center for Victims 
  of Crime, Washington, D.C., statement..........................    43
Perkins, R. Keith, Esq., Founding Attorney and Executive 
  Director, The Never Again Foundation, Chandler, Arizona, 
  statement......................................................    48
Rex, Judith A., Executive Director, Vermont Center for Crime 
  Victims Services, Waterbury, Vermont, statement................    50
Ruegg, Kevin S., CEO/Executive Director, Arizona Foundation for 
  Legal Services & Education, Phoenix, Arizona, statement........    53
Russell, Susan S., M.A., Warren, Vermont, statement..............    54


THE VICTIMS OF CRIME ACT: 25 YEARS OF PROTECTING AND SUPPORTING VICTIMS

                              ----------                              


                        TUESDAY, APRIL 28, 2009

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:10 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Wyden, and Klobuchar.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning, everybody.
    This past Sunday marked the start of National Crime 
Victims' Rights Week. Now, since 1981, here in Washington and 
in communities across the Nation, people have observed this 
week with candlelight vigils and public rallies to renew our 
commitment to crime victims and their families. I think it is 
important that we do this to recognize the needs of crime 
victims and their families.
    I was talking with Susan Russell and Judy Rex from our 
State of Vermont about this, and I am reminded, of course, that 
this is the 25th anniversary, and in some ways, it seems like 
just yesterday that the Victims of Crime Act was passed. I was 
one of the supporters of that at the time. It has supported 
essential services for crime victims and their families. The 
people in Vermont have heard me tell about how, when I was a 
prosecutor, there were not any of these programs, and we had to 
make them up as we went along. I remember my wife and I 
personally financing a number of the programs and a number of 
volunteers and others. And now we have grants for direct 
services to victims, State crime victim compensation programs, 
emergency shelters, crisis intervention, counseling, and 
assistance in participating in the criminal justice system--all 
these, and I should note that these do not cost taxpayers any 
money. They are funded from a reserve fund created from the 
fines and penalties paid by Federal criminal offenders.
    A lot of us have worked hard over the years to protect the 
Crime Victims Fund. They serve nearly 4 million crime victims 
each year, including victims of violent crime, domestic 
violence, sexual assault, child abuse, elder abuse, and drunk 
driving. This makes it possible. I think of the number of times 
we congratulate ourselves that we have prosecuted somebody, and 
they go off, and we spend a fortune to prosecute the person, 
and at that time there was nothing to do anything for the 
victims.
    I was worried that the Crime Victims Fund would be there in 
good times and bad. Several years ago, I worked to make sure it 
had a ``rainy day'' capacity so that we would not have to worry 
about it running out of money and being left stranded. More 
recently, an annual cap has been set on the level of funding to 
be spent from the fund in a given year. I remember when the cap 
was established, and former President Bush sought to empty the 
Crime Victims Fund of unexpended funds--funds that we had put 
in there to have for a rainy day. I joined a bipartisan effort 
with Senator Crapo of Idaho and others from both political 
parties to make sure that the money was preserved. There are 
enough other places we can find money. This was one that was 
being well used.
    So we are working as hard as ever. We are working with 
Senators from both sides of the aisle. I hope we can raise the 
cap this coming year to devote more than $700 million to crime 
victims.
    I want to commend Senator Mikulski, who is the Chairwoman 
of the Commerce, Justice, and Science Appropriations 
Subcommittee, and Senator Shelby, the Ranking Member, for 
working with the President to provide $100 million in the 
economic recovery program for crime victims. I look forward to 
working with Senator Mikulski, Senator Crapo, and, of course, 
Senator Feinstein, who has been a tremendous help in all of 
this, to keep us going.
    I look forward to hearing from our witnesses. Two of our 
witnesses, as I mentioned, come from Vermont. Susan Russell has 
an incredible story. Her courage and strength is an inspiration 
to us all. And I should mention she lives just a few miles from 
where I live in Vermont.
    Judy Rex, I have enjoyed over the years calling Judy to 
say, ``Judy, you know that money that was not coming? It is 
coming.'' And knowing it is going to be done well, and, of 
course, Mary Lou Leary, from the National Center for Victims of 
Crime, is well known to this Committee, as is Steve Derene from 
the National Association of VOCA Assistance Administrators, and 
R. Keith Perkins from the very well named Never Again 
Foundation.
    Before we go to the witnesses, Senator Feinstein, did you 
want to say anything?

  STATEMENT OF HON. DIANNE FEINSTEN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, and I 
very much appreciate the good work you have done, and these 
witnesses present.
    In 2004, Senator Kyl and I introduced and subsequently 
passed the Crime Victims' Rights Act, and that was essentially 
giving crime victims certain basic rights--the right to be 
present in the court, the right to know when your attacker has 
been released, the right to make a statement. But what we found 
was that the defendants had essentially all the rights, and a 
crime victim had virtually no rights. And I would just be 
curious at a later time if in the comments of your witnesses, 
if they would be willing to comment on how effective they 
believe this has been, and if they think there still is 
additional action to be taken.
    I was appalled when I learned that a victim, let us say a 
rape victim, had no right to be notified if her attacker is 
released from jail. And theoretically, at least by the law, now 
this is taken care of.
    So my question is: Are these rights, in fact, being carried 
out? And perhaps if you can, you would address that in your 
testimony.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Since 1998, Susan Russell has served as a criminal justice 
victim services consultant with the Office for Victims of 
Crime. For the past 7 years, she has worked for the Central 
Vermont Council on Aging as the Director of Community Service. 
Central Vermont is the area where I am from. She also chaired 
Vermont's Sexual Violence Task Force, served as a member of the 
Vermont Network Against Domestic and Sexual Violence. She has 
received several awards for her efforts, including the 2005 
National Organization for Victim Assistance Edith Surgan Award 
for outstanding dedication and leadership, and Vermont's 1995 
Outstanding Victim Advocacy and Awareness Award.
    Ms. Russell, please go ahead. Make sure that is on.

      STATEMENT OF SUSAN S. RUSSELL, M.A., WARREN, VERMONT

    Ms. Russell. Good day. I would like to thank you, Chairman 
Leahy, Senator Patrick Leahy, and Ranking Member Senator 
Specter, for inviting me here today to testify on behalf of 
victims. Indeed it is quite an honor and privilege to be here 
today to provide testimony on the Victims of Crime Act. While I 
have over a decade of experience working within victim 
services, the most significant experience I bring before you 
today is as a survivor of violent crime.
    Seventeen years ago, a man who resided in the same small 
rural community as I kidnapped, raped, and nearly killed me. 
This man slashed two of my car tires and then followed me. It 
is highly likely that he had been stalking me for some time as 
several years after my assault, I learned that he had broken 
into my husband's truck and had stolen identifying information. 
This man held no regard for life as, after begging and pleading 
for my life, he fractured my skull in three places with a tire 
iron, broke several facial bones, and left me to die in a 
remote wilderness area. I can recall gaining consciousness 
hours later, cold, shivering, naked, and in intense pain. I 
recall touching my head and feeling something very sharp and 
protruding. And as a trained emergency medical technician, I 
knew that I was in serious trouble and needed help. Somehow, I 
managed to stumble through the woods a tenth of a mile where 
there were five teenagers camped. They managed to keep me warm 
and awake, and two of them hiked 3 miles to the nearest phone.
    I was taken to a nearby hospital where they stabilized my 
injuries and prepared me to be sent to another hospital that 
specialized in traumatic brain injuries. While in the emergency 
room of the first hospital, I was met by a detective who 
gathered information which led to the apprehension of my 
assailant 4 days later.
    Upon arrival at the emergency room of the second hospital, 
I had a team of nurses and doctors working to prepare me for 
surgery. During this time my husband was brought in, and he 
immediately passed out and was escorted out of the emergency 
room. However, after he recovered, he was met by a rape crisis 
advocate who provided him with information and a supportive 
ear. During my 3-week stay in the hospital, the rape crisis 
advocate came several times to talk and/or listen. And after I 
returned home, I was able to call the rape crisis hotline any 
time day or night. Rape crisis centers which provide a host of 
victim services such as this one are funded with VOCA funds.
    At the time of my assault, I worked as a hiking/canoeing 
guide. I subsequently lost my job and had no income. It took me 
many months--really many years--to recuperate physically, and 
part of my recover hinged on physical therapy--something not 
covered by my medical insurance. The medical bills alone even 
with health insurance reached over $30,000. Another VOCA-funded 
service which I benefited from is the Victims Compensation 
Program. Vermont's Victim Compensation will allocate $10,000 
per victim for things such as medical costs, including physical 
therapy and counseling. These are two of the services that I so 
desperately needed and would not have had access to if it were 
not for VOCA.
    Soon after my assault, I was contacted by the State's 
Attorney Victim Advocate, and we found ourselves having to go 
through the criminal justice system. Again, due to VOCA funds, 
we were able to have a victim advocate help us navigate the 
criminal justice system. I am quite certain I would never have 
survived the criminal justice system without the information 
and support provided by the victim advocate. Fortunately for 
all of us, due to having a way to be involved and informed, a 
plea agreement was met and the offender was convicted and 
sentenced to 25 to 35 years.
    However, in approximately 5 years, he will be released in 
Vermont having maxed out his sentence for a total time served 
of 23 years. He will be released, untreated and unsupervised. 
His only requirement will be to register with the Vermont Sex 
Offender Registry.
    In closing, I would like to state that had I not received 
these VOCA funding services, I would not be here today. I would 
also like to add that these services helped my husband and I 
remain together as next month we will celebrate our 26th 
wedding anniversary. There is no doubt in my mind that without 
VOCA funding services, I would not have been able rebuild my 
life and recover in a manner that moved me from a victim to a 
survivor.
    Thank you again for inviting me here to share my story.
    [The prepared statement of Ms. Russell appears as a 
submission for the record.]
    Chairman Leahy. Thank you. Thank you, Ms. Russell. I knew 
the story, but I thought it was important that others hear it. 
It is a very moving one. I also think it is fortunate we have 
these programs. Certainly I wish there was no need for them. I 
wish there would never be an experience like you went through. 
But you know and I know that happens, whether in our State or 
other States. And I think back to the days of my own experience 
in law enforcement when we did not have that and how we had to 
piece these things together and the number of people who must 
have fallen without the help they needed. So thank you for your 
bravery in repeating it, and congratulations on 26 years. It 
seems like so long ago. In our family we will celebrate our 
47th this summer.
    Judy Rex is the Executive Director of the Vermont Center 
for Crime Victim Services that administers the Victim 
Compensation Program, the Victim Assistance Program, and other 
Federal and State grants for community-based programs serving 
victims of crime. Previously, she had been the Executive 
Director of Vermont Protection and Advocacy, the coordinator of 
the Vermont Victim Assistance Program, a State program serving 
victims of crime through the Vermont Department of State's 
Attorney. She served as the coordinator of the Vermont Network 
Against Domestic Violence and Sexual Assault, a statewide 
association of 17 private, nonprofit domestic violence and rape 
crisis program well known to all of us in Vermont.
    Please go ahead.

STATEMENT OF JUDITH A. REX, EXECUTIVE DIRECTOR, VERMONT CENTER 
         FOR CRIME VICTIM SERVICES, WATERBURY, VERMONT

    Ms. Rex. Good morning. I want to thank Chairman Leahy and 
Ranking Member Specter for giving me this opportunity to speak 
before the Senate Judiciary Committee. It is an honor for me to 
appear here today as we celebrate the 25th anniversary of the 
Victims of Crime Act.
    I have worked on behalf of crime victims for over 25 years, 
and I remember what it was like before the Victims of Crime Act 
was enacted. In Vermont, there were very few services and 
supports for crime victims. In the early 1980s, Vermont had 
four domestic violence shelters and two rape crisis programs. 
The entire State appropriation for these programs was $50,000 a 
year, and the State allocation for the domestic violence 
shelter where I worked was $5,000 per year.
    The passage of the Victims of Crime Act in 1984 has had a 
tremendous impact on how crime victim services have evolved and 
expanded in this country--and certainly in Vermont. When the 
Victims of Crime Act passed, then-Governor Kunin earmarked the 
funding to establish rape crisis programs in every county in 
Vermont. As a result of the VOCA funding, Vermont was able to 
establish ten additional programs, ensuring that every victim 
of sexual assault in Vermont could access a 24-hour hotline and 
advocacy services.
    In 1986, it was the Victims of Crime Act funding that 
helped Vermont establish its Victim Assistance Program. These 
prosecutor-based victim advocates ensure that crime victims 
receive information, notification of court hearings, and a 
variety of support services throughout the criminal justice 
process. The program has played a critical role in ensuring 
that Vermont's crime victims receive restitution for their 
crime-related losses and, even more importantly, in empowering 
crime victims to address the court at sentencing to share the 
impact of the crime on their lives.
    In 1990, Vermont finally established its Victims 
Compensation Program, and it was the Federal VOCA match that 
convinced the Vermont Legislature to fund this initiative. In 
2000, when there was an increase to the VOCA cap, Vermont was 
able to establish a Victim Services Program within the 
Department of Corrections that is now fully funded with State 
funds. These advocates provide an array of services to crime 
victims to help prepare them for an offender's release from 
incarceration. Services for underserved populations were also 
established at this time. One example is our Deaf Victim 
Advocacy program, comprised of three deaf victim advocates who 
provide education and advocacy services to the deaf and hard-
of-hearing communities throughout Vermont.
    The most recent impact of VOCA was the inclusion of $100 
million for crime victims in the American Recovery and 
Reinvestment Act. In January, I was faced with making cuts of 
up to 20 percent to victim services programs in Vermont due to 
declining State revenues. The impact of these cuts would have 
been significant for those very small domestic violence 
programs, child advocacy centers, and supervised visitation 
programs operating in the most rural areas of Vermont. Some of 
these programs would have closed. But as a result of the 
Recovery Act funding, I was able to level- fund all direct 
service programs serving crime victims in the 2010 State 
budget. This infusion of funding could not have happened at a 
more critical time, since we all know that crime rates often 
increase during hard economic times.
    Despite all of these accomplishments, there is still much 
more to be done. In 2003, the Center for Crime Victim Services 
engaged in a lengthy strategic planning process. A number of 
gaps in services were identified, including the need for victim 
advocates in police departments, specialized services for 
people with disabilities who have been victimized, and services 
for the elderly--a growing population that is particularly 
vulnerable to financial fraud and exploitation. However, 
because Vermont has not seen any significant increase in our 
VOCA allocation for the past 8 years, little has been 
accomplished in these areas. In fact, in some years we have 
seen our allocation reduced, even though the number of crime 
victims needing services continues to grow.
    I know that other States are also struggling with this same 
dilemma. I would urge this Committee to consider raising the 
VOCA cap to $705 million in the 2010 Federal budget so that we 
can begin to address some of these gaps in services. One 
important lesson we have learned over the last 25 years is that 
the sooner we are able to respond to a crime victim's trauma, 
the sooner they are able to recover. As a society, we cannot 
afford to delay services to crime victims. The cost is too 
great.
    In closing, I want to thank the Judiciary Committee, and I 
want to especially thank Chairman Leahy, for all of the support 
you have given us for the last 25 years, and I look forward to 
another 25 years of progress.
    Thank you.
    [The prepared statement of Ms. Rex appears as a submission 
for the record.]
    Chairman Leahy. I look forward to 25 years of progress, but 
not 25 years more here in the Senate.
    [Laughter.]
    Chairman Leahy. But thank you very much.
    Mary Lou Leary is currently the Executive Director of the 
National Center for Victims of Crime. She has served there 
since 2004. She previously served as United States Attorney for 
the District of Columbia and as Acting Assistant Attorney 
General for the Office of Justice Programs. As the leader of 
the Office of Justice Programs, she oversaw the Department of 
Justice's Office for Victims of Crime and the Office of 
Violence Against Women. She also served as Acting Director of 
Community-Oriented Policing Services at the Department.
    As always, Ms. Leary, it is good to see you, and I am 
delighted to hear you are going to be rejoining the Department. 
Please go ahead.

   STATEMENT OF MARY LOU LEARY, EXECUTIVE DIRECTOR, NATIONAL 
         CENTER FOR VICTIMS OF CRIME, WASHINGTON, D.C.

    Ms. Leary. Thank you. Good morning, Chairman Leahy. Thank 
you to you and Ranking Member Specter for this opportunity. 
Good morning, Senator Feinstein. I want to say thank you for 
holding this hearing during Crime Victims' Rights Week. I think 
this is just the ideal time for us to be focusing on one of the 
Nation's most successful programs: the Victims of Crime Act and 
the Crime Victims Fund that it created.
    I am Mary Lou Leary, and as the Senator said, I am 
Executive Director of the National Center for Victims of Crime. 
At the National Center for almost 25 years now, we have worked 
to make sure that victims have the rights, the resources, and 
the respect that they need to rebuild their lives after a 
crime.
    Steve Derene's written testimony explains all about VOCA 
and how the fund works, the difference between compensation and 
assistance, so I will not go into any of those details. But 
you, Senator Leahy, understand better than just about anybody 
that VOCA funds are essential to our national response to 
victims. In fact, the National Center recently surveyed our 
membership, and more than 98 percent of our nonprofit victim 
service provider members tell us that VOCA funds are ``very 
important,'' and you heard that in Judy Rex's testimony this 
morning. More than 90 percent of the system-based providers--
people in law enforcement and prosecutors' offices--say the 
same thing.
    For the past several years, Congress has imposed a cap on 
the funds disbursed each year, and in recent years, the balance 
has grown to about $1.9 billion. And the cap has been hovering 
around $625 million. Last year the cap dropped down to $590 
million.
    I came before this Committee in January and told you that 
this reduction of funding, coupled with the economic climate, 
was devastating to victim service programs. And, again, you 
heard that from Judy Rex this morning. People were cutting 
staff hours, laying people off, and programs were reaching 
fewer victims and, in fact, providing even fewer services to 
the ones that they could reach. For example, in many places 
victims were placed on very long waiting lists for services; 
even child victims of sexual abuse, weeks before they could get 
into counseling.
    When we reported to you in January on this situation, you 
responded by working to ensure that $100 million for crime 
victim compensation and assistance would be included in the 
stimulus package, and we cannot tell you how grateful we are 
for that. Then, the fiscal year 2009 appropriations package 
passed in February released $635 million from the VOCA Fund. So 
this combination will restore victim funding to the levels it 
received in 2006, before those reductions.
    So the dollars have not reached the front-line service 
providers yet, but relief is already being felt across the 
country. So we thank you for that. The relief was much needed 
and well timed, but I am here to tell you there is still much 
more to be done.
    Compensation assistance, for instance, is helpful, but some 
states have told us they expect to disburse all their stimulus 
compensation money within just a few weeks. The restoration of 
funding for victim services may take more victims off waiting 
lists for services, but there are so many more victims who are 
not being reached and who do not even know that help is 
available.
    State and local programs tell us they desperately need 
money for awareness and outreach so that victims in their 
communities will know where to turn for help. And then they 
need money for the services to help them when those victims do 
come forward.
    As you know, the economic crisis is having a terrible 
impact on victims, increasing victimization, increasing the 
need for services, and increasing the range of services that 
are needed. Our Helpline, for instance, is seeing a big spike 
in calls from victims, and we have seen a big spike in calls 
from fraud victims. Many victims of fraud have lost absolutely 
everything, and they are at the end of their rope, no place to 
turn.
    These victims are in desperate need of financial counseling 
to help them pull together what remaining assets they have, and 
time is very often of the essence. They have nowhere to turn 
for this. They also need mental health counseling to overcome 
the stress and the shame of this kind of victimization, but it 
is not available.
    States could, under regulations, pay for this kind of 
counseling, but they have been reluctant to expand the pool of 
eligible victims because there just is not enough money to go 
around. Too many victims of crime have no services outside the 
criminal justice system. Too many victims are going unserved.
    Congress has the ability to provide the funding that is 
necessary to bridge this gap. There is $1.9 billion in the VOCA 
Fund. Additional fines over $2.7 billion have already been 
announced against corporate defendants, so additional moneys 
can be released from the VOCA Fund without compromising the 
long-term stability of that fund.
    In 1984, Congress created the VOCA Fund, and it 
fundamentally changed the way this Nation responds to victims 
of crime. This funding, as you heard from Susan Russell's 
testimony, truly helps victims of crime rebuild their lives, 
and we know that is a slow process.
    Congress reaffirmed its commitment to victims earlier this 
year through the stimulus funding and it restored the 
appropriations levels. Now we ask you to take the very next 
step. We urge you to tell victims of crime that you are still 
committed; you still hear their voices; you recognize their 
needs; and you will extend them a helping hand by raising the 
cap on the VOCA Fund.
    Thank you.
    [The prepared statement of Ms. Leary appears as a 
submission for the record.]
    Chairman Leahy. Thank you, Ms. Leary. And I can assure you 
I hear their voices, and I think of them. I still have 
nightmares about some of the things I saw at 3 o'clock in the 
morning and 4 o'clock in the morning when I would be at some of 
these crime scenes with the lights from the police cars, 
blinking lights reflecting off the walls, and some of the most 
horrific scenes. I do not forget.
    The next witness is Keith Perkins. He is the Founding 
Attorney and Executive Director of the Never Again Foundation 
Legal Services, provides free legal representation for crime 
victims in civil lawsuits directly against the criminal 
perpetrators. He authored the highly acclaimed Arizona crime 
victims rights programs, received several top awards--the 2007 
Arizona Attorney General Distinguished Service Award, the 2007 
Foundation for Justice Work, and the Arizona State Bar's 
Foundation for Legal Services, the 2009 College Honored Alumni 
Award from Brigham Young University's J. Reuben Clark Law 
School, in recognition not only for his achievements but 
dedication to a life of services. That is actually a nice thing 
to hear, an award for a life of services.
    Please go ahead, Mr. Perkins.

  STATEMENT OF R. KEITH PERKINS, ESQ., FOUNDING ATTORNEY AND 
   EXECUTIVE DIRECTOR, THE NEVER AGAIN FOUNDATION, CHANDLER, 
                            ARIZONA

    Mr. Perkins. Mr. Chairman, Ranking Member Specter, Senator 
Feinstein, and members of the Committee, my name is Keith 
Perkins. I am the Founding Attorney and the Executive Director 
of the Never Again Foundation Legal Services.
    How grateful we are for the tremendous amount of good that 
the Victims of Crime Act has been able to do for so many over 
the last 25 years.
    My testimony to you today will comprise primarily of three 
parts: the successes that we have been able to have within the 
spirit of VOCA, challenges that we have had with VOCA, and a 
suggestion that we bring to you today to improve VOCA.
    The purposes of VOCA are vitally important, and they 
include the help to provide that emotional healing as well as 
that economic restabilization that victims of crime need after 
they have been a victim of crime.
    The Department of Justice confirms that the cost of crime 
is staggering. It costs us billions of dollars each year. There 
are only three parties that can bear that cost: the 
perpetrators of the crime, the victims of the crime, or somehow 
it being absorbed by the rest of us in society. The criminal 
justice system was not designed to send that cost back to the 
criminal perpetrators. It was only the civil justice system 
that was designed to take that burden that is being borne by 
the victims as well as by us in society and shift it back to 
put it back upon those who have caused the harm, back upon the 
criminal perpetrators.
    However, most crime victims have been unable to gain access 
to that civil justice system, primarily because it is not a 
matter of law office economics. For most lawyers, it simply 
does not make financial sense to just simply represent crime 
victims in civil actions as long as it is just against the 
criminal perpetrators.
    So, with that in mind and to fill that void, in Arizona for 
the last 10 years we have provided free, nonprofit legal 
representation to crime victims in civil lawsuits directly 
against the criminal perpetrators. The results have been quite 
dynamic. We have now won over $170 million in judgments--
directly against criminals.
    Chairman Leahy. How much?
    Mr. Perkins. $170 million in judgments directly and only 
against the criminal perpetrators.
    Now, what we have found is that many of the crime victims, 
as well as the public, have been anxious to have the 
opportunity to finally take that full cost of crime and send it 
back and place it directly and squarely upon the shoulders of 
those who have caused it.
    Now, we know that all of that is not going to be 
collectable from the criminals. However, we are very pleased to 
report that we have actually been able to collect over $2 
million of that directly from the criminal perpetrators; 100 
percent of that has all gone back to the victims to help 
provide that economic restabilization.
    Now, one of the things that might come as a bit of a 
surprise is that money is not the primary motivating factor for 
why the crime victims have requested to have civil remedies. 
Rather, the No. 1 reason that they requested the civil remedies 
is to help provide an additional sense of emotional healing 
that they may not have been able to get in their particular 
circumstance through the criminal justice system. Examples of 
that may include an opportunity to regain power and control and 
the right to make the decisions in the case; an opportunity to 
fully tell their side of the story; an opportunity to place 
that economic responsibility for the cost of crime personally 
and directly upon the perpetrator who caused it.
    In other words, the civil justice system can play a very 
important part of fulfilling the very purposes for which the 
Victims of Crime Act was enacted.
    But now for the problem: VOCA does not support civil 
actions by crime victims directly. I think, Mr. Chairman, the 
reason why that was originally put in VOCA was because we 
wanted to make sure that the sacred money of VOCA could not be 
used for civil actions against negligent deep pockets of third 
parties.
    However, with that broad prohibition, we have unnecessarily 
restricted victims of crime from being able to put that 
financial accountability directly upon the very people that all 
of us think should be responsible for it in the first place--
that is, upon the criminal defendants. And as a result, the 
victims of crime have only been able to look to secondary 
sources for that economic restabilization.
    So we come today on behalf of a broad base of victim 
service providers throughout Arizona, and we would like to ask 
that VOCA--and VAWA as well--allow a very narrow exception that 
it can help to provide that emotional healing and economic 
restabilization for crime victims and civil actions directly 
and only against criminally convicted perpetrators. This will 
help victims nationwide be able to gain further access to that 
justice that they desire with the help of nonprofit legal 
service organizations willing to give it all back to the 
victims to help them rebuild their lives.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perkins appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Steve Derene is Executive Director of the National 
Association of VOCA Assistance Administrators. Since its 
creation in 2001, he has represented State agencies and 
administers State VOCA victim assistance grants. He has served 
as an expert consultant to the U.S. Justice Department Office 
for Victims of Crime, formerly the Director of Research and 
Information for the Wisconsin Department of Justice, worked in 
the Department's Office of Crime Victim Services, is the 2005 
recipient of the National Crime Victims Services Award and the 
2006 Congressional Crime Victims Lois Haight Award.
    Please go ahead.

    STATEMENT OF STEVE DERENE, EXECUTIVE DIRECTOR, NATIONAL 
ASSOCIATION OF VICTIMS OF CRIME ACT ASSISTANCE ADMINISTRATORS, 
                       MADISON, WISCONSIN

    Mr. Derene. Thank you very much, Mr. Chairman and members 
of the Committee. As has been mentioned, it is appropriate that 
we are discussing this during the 25th anniversary of the 
enactment of VOCA, and while much of the focus has been on the 
funding aspects of VOCA, I would just like to acknowledge the 
fact that VOCA since its inception has really represented 
considerably more than just the dollars, just another funding 
stream. It has been very significant, and I think you have 
heard some of the reasons why. It really represents a 
commitment that the Government made to treat victims with 
fairness and dignity and respect about 25 years ago. So I think 
it was a catalyst to making much of the improvements throughout 
the Nation over the last 25 years. And our challenge now, as 
has been mentioned, is: Where are we, and where are we going to 
go?
    I will just summarize some of what you have heard already 
in terms of a national perspective. When VOCA was first adopted 
in 1984, the first year there was $68 million collected, and in 
2007, there was over $1 billion. And I think that signifies the 
resources that are available to help victims of crime.
    As has been mentioned, one of the challenges here is how do 
you release that money to the field to do what it is intended 
to do, and I would just note that under the language of the 
statute itself, had there not been a cap, all of that money 
would already have been out providing services to victims. And 
I think one of the functions that has been served by a cap--and 
I think there have been some positive features--and one I think 
is necessary for people such as Judy, who administers this 
money, is that it is very helpful to have some predictability, 
some sustainability of the money going forward. And we know 
that money is coming in.
    But just to put it in perspective a little bit, from 2006 
to 2008, as deposits in the fund increased by 53 percent, 
grants to State victim assistance programs were actually cut by 
22 percent. And thanks to your efforts and the efforts of 
Senators Mikulski and Shelby in 2009, we made some very 
important inroads into restoring that money back to the level 
it was in 2006. And what we anticipate the funding will be for 
State assistance programs in 2009 with the appropriations and 
the Recovery Act together will get us back to where we were in 
2006. So we are sort of back to square one, and when we hear 
proposals for additional uses of VOCA, one of the basic 
purposes of VOCA was really to sustain programs, to sustain 
services to victims. And as we know, there is a great deal of 
additional needs. There are new types of services. There are 
new types of victims that we want to respond to: stalking, 
identity theft, dating violence. There is a whole panoply--
human trafficking--that we did not recognize 25 years ago. And 
so a State's ability to not only sustain programs but to meet 
these increasing needs in populations really depends on our 
ability to release the money that is there, that is not 
taxpayer money, as you know, and that was dedicated both by 
statute and in the appropriations solely for the use of 
victims.
    And so I would sincerely endorse the suggestion that, at 
least for 2010, the level of funding of $705 million will 
sustain that level that we had in 2006, it will get us back to 
2006 with inflation, and begin to make some inroads, very 
modest inroads into the ability to meet the ongoing needs. And 
so I thank the Committee for all its efforts.
    I would just like to respond briefly to Senator Feinstein's 
question about the CVRA, and I think that was a very 
significant proposal. We understand that the rights there 
really pertain to victims in the Federal system, which we are 
talking about maybe 1 or 2 percent. But it also contains some 
other features. I know it came from Senator Leahy's 
contribution to that bill in terms of services, in terms of 
funding. I know there are studies underway as far as the 
effectiveness of the rights. But one part of that act which I 
do think pertains to VOCA as well, there was authorization to 
fund victim services in the U.S. Attorney's Offices, legal 
clinics, which are very important in defining and establishing 
the case law, other compliance programs, notification programs, 
and there were a variety of services intended to be supported 
without using VOCA funds, to use other funding streams. And I 
do not believe any of that money--I believe Congress just 
reauthorized those provisions, but I do not believe any money 
has ever been appropriated for those services. And I think 
those services go toward making the rights effective both at 
the Federal level and the State level. And I know the 
appropriations process is apart from that, but to the extent 
those funding streams are implemented and funded, it will 
relieve or be in addition to the amounts available for similar 
types of things under VOCA. So I do know as far as the services 
and funding parts of that act go, that has not been implemented 
at all.
    Thank you very much.
    [The prepared statement of Mr. Derene appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    Let me start. We have been joined by Senator Klobuchar of 
Minnesota, who is also a former prosecutor. I will start with 
you, Ms. Russell. It cannot be easy telling the story of what 
you went through and having to relive the fact that you nearly 
died, aside from the horrendous attack, the rape, the tire iron 
to your skull, and all the rest. I commend your bravery because 
we have to be reminded periodically that the Victims of Crime 
Act, these programs are not just something on paper. There are 
real people involved.
    You talked about the advice and the help you and your 
husband got. What would you say are the most important parts of 
help that the two of you got during this time? And were there 
things that were not done that should be done? I realize that 
is kind of open-ended, but I am just curious. We rarely have 
somebody with such firsthand knowledge as yourself before the 
Committee.
    Ms. Russell. I would say that my awareness of my husband 
being a secondary victim really raised the question to me later 
on of what kind of services that we could provide family 
members. We were fortunate that that rape crisis advocate 
recognized that he was a secondary victim and he needed to have 
that information. So I look at that.
    I also look at the spectrum of all the help that has been 
given in terms of relieving that stress of some of the 
financial burden. In my particular case, restitution was not 
ordered, and so there was no process coming back from that.
    I think times have really changed----
    Chairman Leahy. I see Mr. Perkins shaking his head on that 
one. I thought you might note that.
    Go ahead.
    Ms. Russell. But this was 17 years ago, and we certainly 
have seen a lot of improvement in 17 years.
    Chairman Leahy. But you said you had about $30,000 in 
medical bills alone.
    Ms. Russell. Yes.
    Chairman Leahy. The victim compensation cap in Vermont is 
$10,000, correct?
    Ms. Russell. Correct. We were really fortunate that I live 
in a very, very supportive community, and they held fundraisers 
for us. I was also able to work with the hospital in reducing 
some of those costs. One of my concerns back then was that I 
was told that I should have a CAT scan done every couple of 
years, and those things are not always covered by medical 
insurance. So I was worried about that. So, you know, raising 
the cap per victim might be something that should be looked at.
    Chairman Leahy. Thank you. We will. We will. Did you have 
expense out of pocket? Well, obviously you did if they had to 
have a fundraiser, they had fundraisers in the community for 
you.
    Ms. Russell. Yes. I was unable to drive for almost a year, 
so we always had to find a way to get me to appointments and 
things like that. So that was an additional thing. Losing my 
employment was a struggle, but fortunately, we were able to tap 
into unemployment. But that is another avenue that might be 
considered, too, because somebody might not be eligible for 
unemployment.
    Chairman Leahy. Let me ask Ms. Rex, the State cap is there 
to make sure there is enough money for a victim. If we increase 
the cap on spending, do you think that there is a possibility 
the State cap, the $10,000, might be raised? And should it be? 
Hit the button.
    Ms. Rex. Yes, I would love to see the State cap raised. I 
think what could help convince the Vermont Legislature to do 
something like that would be if the Federal matching dollars 
were also increased. I think right now the VOCA match is 60 
percent. Is that right? So if that were to go up to, let us 
say, 75 percent, then I think Vermont could do the same.
    Chairman Leahy. You know, one of the things--and we are 
going to be voting on a bill here in just about an hour on the 
Senate floor on fraud, mortgage fraud, and other things. We 
looked at elderly especially being hit with this, their life 
savings gone, their money they set aside for retirement gone; 
oftentimes their home, the one area where they have built up 
equity, gone, by unscrupulous people. Our bill will allow us to 
go after those people and put them in jail. But in the Victims 
of Crime Act, is there an emphasis on the elderly?
    Ms. Rex. Well, I think one of the challenges for us is 
getting the elderly to report the crime in the first place. 
Particularly when you are talking about fraud, I think when 
they realize that they have been taken advantage of, they are 
often embarrassed. They do not want other people to know about 
it, and they do not often report it.
    But I can tell you, since the center--we now do restitution 
for the State of Vermont, and so we process all those 
restitution orders, and it was alarming for me to see the 
number of elderly people who are the victims of fraud in the 
State. And the sad thing is we do put those offenders in jail, 
but we rarely collect money from them. And, fortunately, 
Vermont does have a restitution fund, and so those victims will 
at least get $10,000 out of the fund. But these cases usually 
involved over $100,000, their life savings, which they will 
never see during their lifetime.
    Chairman Leahy. Does anybody else want to add to that just 
on the elderly part? Feel free.
    Ms. Leary. Senator Leahy, I would add that our toll-free 
crime victims helpline receives many, many calls from elderly 
victims, and many of them actually find us in the Yellow Pages, 
in the phone book. But we have seen an increasing number of 
elderly victims of all kinds of financial scams. Just a couple 
weeks ago, in fact, we had a call from a man who is over 70 who 
lost everything in a Ponzi scheme. It was not Madoff. It was 
another case. And there were 50 victims in that case, and none 
of those victims had expected to get anything back. And so he 
was dealing with the embarrassment and shame of having, you 
know, allowed himself to be victimized. That is how he saw it. 
He had no idea how to stabilize his financial situation, let 
alone where to turn to get some help with the emotional impact 
of it.
    It is really devastating. You lose your independence and 
your hope, really, to live out, you know, a good life for the 
remaining years. It is very sad.
    Chairman Leahy. Thank you. Thank you very much.
    I am going to turn to Senator Feinstein. I have to leave 
just for a few minutes. I have got a call from the Leader, 
apparently, regarding the bill on the floor.
    Senator Feinstein.
    Senator Feinstein. [Presiding]. Thank you very much, Mr. 
Chairman. Thank you for your leadership.
    I have been looking at the figures, and what I see is quite 
startling to me. I see California in a lose-lose-lose position 
in terms of money. No State has been cut more than California, 
from $64 million to $31 million. So California has been cut $30 
million over the last 5 years.
    My question, Mr. Derene, is: Why?
    Mr. Derene. If you are referring to the victim assistance 
grants, those are distributed among the States. There is a base 
amount plus population. And so it is proportionate to the size 
of the----
    Senator Feinstein. Well, nobody has the population that we 
do. We are at 38 million people now, with a high crime rate.
    Mr. Derene. Correct. And the distribution of the money that 
is available under the victim assistance grants is distributed 
proportionately by population, so being the largest State, you 
are going to see the largest cut in absolute dollars for your 
State.
    Senator Feinstein. Is that the way the formula goes?
    Mr. Derene. Yes, ma'am. There is a base amount that----
    Senator Feinstein. That is absolutely unacceptable.
    Mr. Derene. There is a base amount that goes to every 
State, and then the amount that remains after that is 
distributed among the States based on population.
    Senator Feinstein. So if you gain people, as all of the 
sunshine States are doing, you lose money.
    Mr. Derene. Proportionately.
    Senator Feinstein. There are 13 States that have lost 
money.
    Mr. Derene. Proportionately, yes, every State is going to 
lose money when the amount available is cut. And as I said in 
my testimony, all States experienced across the board a 22-
percent cut, but a State like California that has a larger 
population is going to have proportionately a larger cut in 
terms of dollars. That is the statute.
    Senator Feinstein. Then it seems to me we need to fix the 
formula so that does not happen. I will do the research and 
look into what California produces for the program and try to 
make a determination whether we get our fair share. But to cut 
the money in half when no other State takes that kind of hit 
because the State has no way of controlling the people that 
come to the State, I think, I must tell you, is grossly unfair 
and unacceptable.
    Mr. Derene. And that is in the statute, so every State is 
going to be cut, and it is going to be approximately within a 
similar range. But a larger State, obviously----
    Senator Feinstein. But what you just told me is that you 
are penalized if you gain population. You do not lose when you 
lose population. Maybe we should take a look at that. But you 
lose when you gain population. That is reverse of the way most 
things are figured on a fair basis.
    Mr. Derene. Every State--if the amount available nationally 
declines, every State is going to lose. Some States will lose 
proportionately a little bit more than others.
    Senator Feinstein. I look at the big States--Texas, New 
York, Florida, and California. None of those other States have 
lost. Only California has lost. And something is not right, and 
it would be my intention to find out what it is. I would like 
to have you know that.
    Mr. Derene. Excuse me. Are you referring to the victim 
assistance chart or the compensation chart?
    Senator Feinstein. Compensation.
    Mr. Derene. Okay. I am sorry. I am referring to the 
assistance. Compensation is a different matter. I apologize, 
because I was responding to a different program.
    The compensation grants are based solely on how much the 
State uses of its State dollars to pay out compensation 
benefits, so that decline is because the State used fewer State 
dollars to make compensation benefits, and that is based in the 
statute. As Judy mentioned, each State gets a percentage. It is 
60 percent of what they used State dollars for. And, frankly, 
over time it may vary because, as States get larger grants, 
they are going to use less of State money. And if they use less 
of State money, they will get more in Federal money. And so 
there is sort of a natural fluctuation.
    Senator Feinstein. Where is the chart that says how much 
Federal money States get? I am reading your materials.
    Mr. Derene. There is a chart there for victim compensation 
that will show you how much State money each State received for 
the last several years, and I think you would be accurate in 
terms of compensation that, if California's VOCA grant went 
down, it is because the State paid out less. But that year they 
probably used more Federal money for benefits. That is going to 
vary from State to State.
    Senator Feinstein. So I really need to figure this because 
if I follow your chart, in grants we have gone from $44.9 
million to $40 million, $40.8 million, in 5 years.
    Mr. Derene. If you go back, you will see----
    Senator Feinstein. No, 4 years.
    Mr. Derene. If you go back several years, you will see 
California, I think there was a year where it received over 
$100 million. And that all depends on how much the State 
program pays out using State dollars.
    Senator Feinstein. So do you add the two together? How do 
you----
    Mr. Derene. Every year the VOCA grant to a State is based 
on how much the State paid out the 2 years prior in State 
money. The State certifies an amount to the Federal Government, 
and that is the basis for determining how much their VOCA 
compensation grant will be.
    Senator Feinstein. Well, this bears some additional 
research.
    Mr. Derene. It is not easy. I understand.
    Senator Feinstein. I will ask my staff to do it so that I 
get a clear picture. Thank you very much.
    Ms. Russell, I must say, I am one that believes that we are 
sorely tested in life, and how we measure up to those tests is 
really the measure of the kind of person we are. And let me 
just say you have certainly measured up to your test. It is 
incredible, and it is wonderful to see you smiling and well and 
here. And so I just want to--I wish this were California wine.
    [Laughter.]
    Senator Feinstein. But I just want to raise my glass to you 
and say, you know, much of the best to you.
    Ms. Russell. Thank you so much.
    Senator Feinstein. You are very welcome.
    Senator, would you like to ask some questions?
    Senator Klobuchar. Thank you very much, Senator Feinstein. 
Thank you for your leadership in this area for so many years. 
And, again, I would echo what Senator Feinstein said, Ms. 
Russell. Thank you for having the courage to come forward and 
talk about what happened to you. Many people cannot do that, 
and that you have been able to do this is so helpful to so many 
other victims. You are not just speaking for yourself. You are 
speaking for them.
    I wanted to talk a little bit about actually what Ms. Leary 
had raised, and these are white-collar crimes, because I see 
that we are seeing an increase in those kinds of crimes, and I 
have known firsthand the hope that these victims need. And what 
I always remember when I was county attorney in Hennepin 
County, Minnesota, managing an office of about 400 people, we 
had an incredibly active victim witness program, and it was one 
of--we think it was one of the best in the country, but it was 
certainly one of the most active. I saw the hope that the 
program gave not only in individual compensation and helping 
victims, as they should be helped, but it also helped us with 
our prosecutions and mentally, because people felt comfortable 
to come forward. The shame that you alluded to, Ms. Leary, 
where victims do not want to come forward, they are scared, to 
have someone there with them every step of the way makes a 
difference.
    But the white-collar area, what I most remember of this is 
we had--I spoke to one of our victim witness advocates once in 
a case, and I saw there were deputies outside of our courtroom. 
And I said, ``Oh, that must be that gang case you are doing, 
huh?'' She said, ``No. It is that white-collar case.'' I said, 
``What?'' And she said that there was--I think she was about 85 
years old--a widow who was so angry because her husband, he had 
died, but he had invested his money, all their life savings 
with someone, and that guy then happened to go and spend all 
their money. He pretended he was religious, he was using the 
money to invest in religious things. And he ended up going down 
to Costa Rica for plastic surgery with all their money. And 
there were a number of victims in the case, and that 85-year-
old woman was so angry and had said some threatening things 
about the victim, that is why those deputies were outside the 
door. And I remember that because it just hit to me how these 
white-collar cases for many good reasons--as you said, people's 
life savings down the drain--can have the kinds of emotions and 
difficulties for people, and we have to remember that. And as 
we look at these increasing white-collar cases, whether it is 
the Madoff case or any others that are coming through the 
system, we have to remember that.
    I wondered, first of all, Ms. Leary, and then maybe Ms. 
Rex, you both have raised this issue, if you could talk a 
little bit about the kinds of programs you would want to see 
how we could address those kinds of needs of these victims of 
white-collar crimes.
    Ms. Leary. Thank you. We are very concerned about this, 
and, you know, currently under the regulations, the Federal 
regulations, the States have the ability to pay for financial 
counseling and mental health counseling for victims of 
financial crime through the compensation programs. But, you 
know, as I said in my testimony, they are very reluctant to 
expand that pool of eligible victims. The assistance programs 
could be developed for these victims, but there is a tremendous 
amount of competition for the funds that are available. You can 
see even some people go ``Oooh'' when Mr. Perkins testified, 
because people are nervous about being able to preserve what we 
have now. And, in fact, there is a huge need. Victims of 
financial crime need a tremendous amount of guidance.
    It is a complex world out there. The crooks are way ahead 
of law enforcement in terms of their sophistication, and so 
unraveling the damage that is done to your credit history, to 
your reputation, there may be warrants out for your arrest be 
somebody has misused your information, you know, restoring your 
fiscal stability is only one part of it.
    People need those services. They need the mental health 
counseling. They need some very practical, hand-holding 
financial advice. They need connections to pro bono or low-cost 
consumer attorneys. People forget that it often requires 
litigation to get your life back on track, to ward off those 
creditors, to restore your financial well-being, get your 
credit history repaired, get those arrest warrants that are 
based on false information quashed.
    People need legal assistance to do this, and particularly 
less sophisticated and perhaps older folks are just completely 
stunned by what confronts them. So they need those services, 
absolutely.
    Senator Klobuchar. Thank you.
    Ms. Rex, do you want to add anything?
    Ms. Rex. I would just say that I do think, as an 
administrator of a compensation program, you know, that the 
face of crime changes with the decades. And I think we do need 
to look at as the pool of elders grows in Vermont and in this 
country, to look at what is happening to them. And our 
compensation program does provide the financial counseling, and 
we will do the mental health counseling. But I think we need to 
start looking at helping people with their living expenses if 
they do not have any money to live and making sure they get to 
stay in their home.
    So I think those are some of the challenges we need to look 
at in the years to come.
    Senator Klobuchar. Thank you for appreciating that because, 
you know, we had one person that could not qualify for student 
loans because her ID was stolen 4 years before. She did not 
think much of it. She just got a new one. And then she had 
racked up 14 prostitution convictions, which, of course, was 
not her, and she could not get any student aid and was going to 
have to drop out of college. So there is this whole grouping of 
services that normal county attorneys or State attorneys' 
offices are not used to providing. And so we have to find some 
way to help these victims of identity theft and much more 
complicated crimes than that.
    Thank you.
    Chairman Leahy. [Presiding.] Thank you. Thank you very 
much, Senator Klobuchar.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I want to commend 
you particularly for standing up for the rights of victims. We 
have had an excellent panel, and I am sorry that I have missed 
at least part of this. This is a hectic morning, even by Senate 
standards.
    I strongly support the legislation involved here, the 
Victims of Crime Act. It is the bedrock of support for victims' 
services across the country. And I think a number of you have 
made some good suggestions with respect to updating the law.
    My first question is directed to you, Mr. Derene, because I 
think you have laid out particularly some of the issues with 
respect to the cap on payments from the fund that was 
established in the legislation. As you noted in your testimony, 
in 2000 Congress put the cap on. It was designed to deal with 
fluctuations in the deposits into the fund. And I think it 
would be helpful if you could describe to the Committee what 
the negative consequences are because there is this cap.
    Mr. Derene. Thank you. I think the problem with the cap is 
that the formula for distributing the fund according to the 
statute--and we just went through part of the problem--is kind 
of complicated. But the bottom line is that the amount 
available for State assistance programs, many of the ones that 
we have been talking about here, is sort of at the bottom of 
the food chain. So unless the cap is set at a sufficient level, 
the amounts that go for other programs increase, or if the cap 
is lowered, the amounts available for States decline. And it is 
a simple matter of the operation of the formula in the statute.
    So what we have seen is that while deposits have actually 
increased, the amount available for State programs has 
declined. And, in fact, you may have gotten letters from 
constituents why if the cap is raised, the programs are still 
getting cut. And part of it is because of that formula.
    As a result of those cuts--as I mentioned, between 2006 and 
2008, there has been a cut of $87 million, or 22 percent--State 
programs at the State level try to buffer those cuts. But at 
some point in time, we pay the piper. The loss of money is 
seen, and we have just seen that in a recent report by the 
Office for Victims of Crime where in 2008 the number of victims 
served by this program nationally was actually reduced by over 
336,000 victims.
    Senator Wyden. Why would this be the right time to raise 
the cap? You know, obviously, when you are talking about this, 
you are always in a balancing act. You have got to ensure the 
stability of the fund. All of you are interested in that, and I 
think at the same time, we understand there are a number of 
critical services for victims that need to be addressed.
    So if someone asked you who was skeptical of this, you 
know, why should we do it right now, what would be your answer?
    Mr. Derene. Of course, I think it is always the right time 
to raise the gap. And I would simply point out that under the 
statute, if there had not been a cap, all of this money that we 
are talking about, about $2 billion that we are talking about 
that has been retained in the fund, would already have been out 
serving victims. And as was mentioned before, you cannot delay 
services to victims. If a woman needs shelter, she needs 
shelter now. She does not need it, you know, in 6 months or 
when the cap is raised. So I always think there is a need
    I did a survey of State administrators and simply said, 
``What is the gap between the amount of funds that you have 
been asked to award and how much you had available? And 
nationally that was over $100 million.
    Senator Wyden. How would you prioritize the services that 
could be offered if the cap was raised?
    Mr. Derene. Well, I think the first--very honestly, I think 
the first need now is to restore what has been cut. We have had 
programs that have shut their doors, staffs that have been laid 
off, so we are really looking at trying to get back to where we 
were, and I think there is a host of needs there for shelter. 
The National Network to End Domestic Violence does an annual 
census, and they reported, I believe, on one day some 9,000 
requests for services have been denied because of lack of 
funding.
    So there are immediate needs for counseling, for shelter, 
for emergency support that I think would be the first priority 
among States if they were able to get more funds.
    Senator Wyden. I have not meant to ignore the other four 
very valuable witnesses. Would any of you like to add a comment 
both with respect to the question of raising the cap and the 
priorities for services if the cap was raised?
    Ms. Leary. Thank you, Senator. I would like to just add 
that not only is there a need for additional VOCA funding to 
release more of those funds, but we need to have steady, 
predictable increases in funding, because, you know, it is kind 
of like your family budget. If you know how much you are going 
to make that year, then you may not like it, but you can decide 
what to do with it. And it is the same thing with victims' 
services. You need to have a steady increase, a predictable 
increase, so that you can ensure the continuity of staff, 
ensure the continuity of services. Victims can rely on you. 
They know 6 months from now you will still be doing whatever 
the service is that they need. And, in addition, victim service 
providers can focus on their mission, which is serving victims 
of crime, and not be distracted and totally preoccupied all the 
time with raising money and worrying about laying your staff 
off and so on. That predictability is equally important.
    Ms. Rex. I would echo what Mary Lou just said, but I would 
also say that one of the things we have been able to do in 
Vermont is to use the VOCA funds to leverage other funding. So 
when I get new VOCA funds, I am able to pilot a new program 
that is serving, you know, some crime victims that are 
currently not being served. And after a couple years, if I can 
show good results, it is really valuable for me to bring to the 
State legislature and say, look, you need to invest in this 
program, too.
    So I think that is another reason why we really need to 
give States a steady increase each year so that we can do these 
kind of innovative programs.
    Senator Wyden. I went to school on a basketball 
scholarship, and they always said you should take one shot to 
close on. And sometimes it would take me a long, long time to 
get that shot to wrap up. But I think your comment really 
summed it up and why Chairman Leahy's hearing is so important.
    If you look back at the history of this legislation, when 
the Victims of Crime Act was passed, there was not a whole lot 
at the State level. There certainly was not a lot of State 
initiative in this area, programs and funding and the like. And 
as a result of this legislation, just as you have suggested, 
when there is attention at the Federal level, when there is 
attention on the rights of victims, it does spread fairly 
quickly to the State level, and we see interest among 
nonprofits and service organizations. So there are many reasons 
why we should bolster this act now as we look back on 25 years 
particularly of the work you all and others have done at 
protecting and supporting victims.
    But one of the most important is when there is Federal 
leadership. Just as you suggest, it does spread to the State 
level, to nonprofits, to organizations outside Washington, D.C. 
So your point is one to quit on.
    Mr. Chairman, thank you. Thank you for your leadership on 
this issue, and as I have told you before, it is a pleasure to 
serve on the Senate Judiciary Committee.
    Chairman Leahy. Well, we have got a chance to do things 
that so many of us agree with, and I know this is an area where 
you have been a strong supporter, and I appreciate that.
    With that, we will stand in recess.
    [Whereupon, at 11:19 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
